  Report No. D-2009-058         February 27, 2009




  DoD Cost of War Reporting of Supplemental Funds
Provided for Procurement and Research, Development,
                 Test, and Evaluation
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
AMC                   Army Materiel Command
ASAF(FM&C)            Office of the Assistant Secretary of the Air Force (Financial
                       Management and Comptroller)
CONOPS                Contingency Operations
DARPA                 Defense Advanced Research Projects Agency
DFAS                  Defense Finance and Accounting Service
DFAS-IN               Defense Finance and Accounting Service-Indianapolis
FMB                   Financial Management Budget
GAO                   Government Accountability Office
GWOT                  Global War on Terror
IG                    Inspector General
NAVAIR                Naval Air Systems Command
NAVSEA                Naval Sea Systems Command
RDT&E                 Research, Development, Test, and Evaluation
SAF/FMBI              Office of the Deputy Assistant Secretary of the Air Force for
                       Financial Management and Comptroller, Directorate of Budget
                       Investment
SOP                   Standard Operating Procedures
SSP                   Strategic Systems Programs
                                INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202-4704




                                                                    February 27, 2009


MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
               (COMPTROLLER)/DoD CHIEF FINANCIAL OFFICER


SUBJECT: DoD Cost of War Reporting of Supplemental Funds Provided for
         Procurement and Research, Development, Test, and Evaluation
         (Report No. D-2009 -058)

We are providing this report for your information and use. We considered your
comments on a draft of this report when preparing the final report.

Comments on the draft of this report conformed to the requirements of DoD Directive
7650.3 and left no unresolved issues. Therefore, we do not require any additional
comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9201 (DSN 664-9201).




                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management
THIS PAGE LEFT INTENTIONALLY BLANK
               Report No. D-2009-058 (Project No. D2006-D000AE-0241.001)
                                         February 27, 2009

               Results in Brief: DoD Cost of War Reporting of
               Supplemental Funds Provided for Procurement
               and Research, Development, Test, and Evaluation
                                                                developed and issued standard operating
What We Did                                                     procedures and ensure that the standard
We reviewed the processes that comptroller                      operating procedures reiterate the
personnel in the Office of the Secretary of                     requirement to include affirmation
Defense, Army, Navy, Air Force, Marine Corps,                   statements with their cost of war data;
and Defense Finance and Accounting Service                     require the DoD Components and
used to prepare sections of the cost of war report              subordinate reporting entities to verify
pertaining to procurement and research,                         that their cost data are accurate,
development, test, and evaluation funds to                      complete, supportable, and properly
determine whether management effectively                        affirmed; and
prepared those reports.                                        require the Defense Finance and
                                                                Accounting Service-Indianapolis to
                                                                ensure the submission of affirmation
What We Found                                                   statements that accompany the monthly
We determined that the Office of the Under                      cost statements and associated analysis.
Secretary of Defense (Comptroller)/DoD Chief
Financial Officer [USD(C)/CFO] needs to
improve its controls over the DoD Components’
                                                         Management Comments and
cost of war reporting process to provide                 Our Response
reasonable assurance regarding the reliability of        The USD(C)/CFO agreed with the
obligation information reported in the                   recommendations of the report and we
“Department of Defense (DoD) Supplemental                considered the comments responsive. The First
and Cost of War Execution Report” for                    Assistant, Deputy Assistant Secretary of the
procurement and research, development, test,             Navy (Financial Management and Comptroller)
and evaluation funds.                                    and the Acting Inspector General, Naval Air
                                                         Systems Command, although not required to
Specifically, the USD(C)/CFO did not ensure              respond, also agreed with comments to the
that the DoD Components and subordinate                  report. In addition, the Comptroller, Defense
reporting entities:                                      Advance Research Projects Agency, also not
                                                         required to respond to the report, generally
      developed and issued standard operating           agreed with the recommendations, but did not
       procedures and other supplemental                 agree with several report statements specific to
       guidance on contingency cost reporting;           Defense Advance Research Projects Agency.
      verified reported cost data; and                  Based on the comments, we clarified the report
      submitted affirmation statements.                 as deemed necessary. The full text of the
                                                         comments provided appears in the Management
What We Recommend                                        Comments section of this report. See the
                                                         recommendations table on the back of this page.
We recommend that the USD(C)/CFO:

      verify that the DoD Components and
       subordinate reporting entities have


                                                     i
          Report No. D-2009-058 (Project No. D2006-D000AE-0241.001)
                                    February 27, 2009

Recommendations Table
Management                     Recommendations            No Additional Comments
                               Requiring Comment          Required
Under Secretary of Defense                                1., 2., 3.
(Comptroller)/DoD Chief
Financial Officer




                                          ii
Table of Contents

Results in Brief                                                                i

Introduction                                                                    1

       Objectives                                                               1
       Background                                                               1
       Review of Internal Controls                                              3

Finding. Oversight Over the Preparation of the DoD Supplemental
         and Cost of War Execution Report                                       5

       Actions Taken to Improve Cost of War Reporting                          11
       Management Comments on the Finding and Our Response                     12
       Recommendations, Management Comments, and Our Response                  12

Appendices

       A. Scope and Methodology                                                15
             Prior Coverage                                                    16
       B. Glossary                                                             19
       C. DoD Components Providing Cost Data for the Cost of War Report        21
       D. Under Secretary of Defense (Comptroller) Memorandum
          Concerning Cost Report Accuracy                                      23
       E. Under Secretary of Defense (Comptroller) Memorandum
          Concerning Affirmation Authority                                     25
       F. Cost of War Reporting Process                                        26
       G. Implementation of Standard Operating Procedures, Verification, and
          Affirmation of Cost of War Data Submitted by DoD Components and
          Subordinate Entities Reviewed                                        29
       H. Management Comments on the Finding and Appendices
          and Our Response                                                     37

Management Comments

       Office of the Under Secretary of Defense (Comptroller)                  41
       Department of the Navy                                                  48
       Defense Advanced Research Projects Agency                               59
THIS PAGE LEFT INTENTIONALLY BLANK
Introduction
Objectives
This audit was derived from Project D2006-D000AE-0241.000, “DoD Use of Global
War on Terror Supplemental Funding Provided for Procurement and Research,
Development, Test, and Evaluation,”1 which was announced August 4, 2006, with the
audit objective of evaluating the adequacy of the DoD financial controls over use of
Global War on Terror (GWOT) supplemental funding provided for procurement and
Research, Development, Test, and Evaluation (RDT&E). During our review, we
identified weaknesses in DoD’s reporting processes. Although the Under Secretary of
Defense (Comptroller)/DoD Chief Financial Officer [USD(C)/CFO] had begun to
implement measures to improve those processes, we determined that further action
needed to be taken. As a result, we revised our audit approach to incorporate additional
work to address the cost of war reporting process. The primary audit objective of this
spin-off audit was to determine whether management was effectively preparing sections
of the DoD supplemental and cost of war execution report pertaining to obligations of
procurement and RDT&E funds. We focused our review on the GWOT reporting
process and the internal control environment. We did not specifically review the
accuracy of the costs reported nor did we evaluate transactions to determine whether total
costs were misstated. See Appendix A for a discussion of the scope and methodology
and prior coverage related to the audit objectives.

Background
This report is the second in a series of reports that address the adequacy of DoD financial
controls over the use of GWOT supplemental and bridge funding provided for
procurement and RDT&E. The first report addressed the Air Force’s financial controls
for issuing, identifying, and using GWOT supplemental funds. The final report will
address the Army, Navy, Marine Corps, Defense-wide agencies, National Guard, and
Reserve Components financial controls over the use of GWOT funds. This report
addresses the internal controls for preparing the DoD supplemental and cost of war
execution report (cost of war report) pertaining to obligations of procurement and
RDT&E funding. Appendix B provides a glossary of technical terms used in this report.

Global War on Terror
Following the terrorist attacks of September 11, 2001, the United States initiated military
operations to combat terrorism in the United States, Afghanistan, and Iraq. Military
operations related to Afghanistan and Iraq are known as Operation Enduring Freedom
and Operation Iraqi Freedom, respectively. Efforts to defend the United States from
further terrorist attacks are referred to as Operation Noble Eagle. These operations are


1
    The name of the audit for Project No. D2006-D000AE-0241.000 changed to “Air Force Use of Global
    War on Terrorism Funding Provided for Procurement and Research, Development, Test, and Evaluation.”
    This audit report was published in final form on November 21, 2007.


                                                    1
collectively referred to as GWOT. The USD(C)/CFO considers GWOT a contingency
operation and requests funding from Congress for GWOT through emergency
supplemental and bridge appropriations.

DoD Supplemental and Cost of War Report
Public Law 109-163, “National Defense Authorization Act for Fiscal Year 2006,”
Subtitle C, “Reports and Sense of Congress Provisions,” January 6, 2006, and DoD
Regulation 7000.14-R, “Department of Defense Financial Management Regulation,”
volume 12, chapter 23, “Contingency Operations,” September 2007,2 require DoD to
prepare the cost of war report.

Congressional Requirement
In Public Law 109-163, Congress requires the Secretary of Defense to submit monthly
the cost of war report to the Government Accountability Office (GAO). Based on these
reports, GAO is required to provide Congress quarterly updates on the costs of
Operations Iraqi Freedom and Enduring Freedom.

DoD Requirement
The Department of Defense Financial Management Regulation requires applicable DoD
Components to submit data for the cost of war report on a monthly basis to the Defense
Finance and Accounting Service-Indianapolis (DFAS-IN).3 DFAS-IN receives the data
from 25 DoD Components, and consolidates it into the cost of war report. After the
USD(C)/CFO approves and authorizes the release of the cost of war report, DFAS-IN
provides the cost of war report to Congress; GAO; the Office of Management and
Budget; the DoD Components; and the Offices of the Under Secretary of Defense for
Policy, the USD(C)/CFO, the Under Secretary of Defense for Personnel and Readiness,
and the Joint Staff. Appendix C provides a list of the 25 DoD Components that submit
data for the consolidated cost of war report.

Systemic Weakness Identified in Prior GAO Coverage
GAO has conducted multiple reviews that examined DoD’s reporting of costs for GWOT
and made numerous recommendations to improve the reliability of the cost data that DoD
is reporting. GAO found that among the problems affecting the reliability of the report
were the persistent deficiencies in DoD’s financial systems and the lack of systematic
procedures to ensure that data were correctly entered into those systems. GAO
acknowledged in its reports that DoD was taking steps to improve its cost reporting.
Because GAO determined that it was not possible to examine all reported costs and had
identified that significant data reliability issues existed, the extent to which total costs
were misstated was not able to be determined.



2
  The audit team used the September 2005 version of the Regulation. The September 2007 version
contained the same criteria that we used with the exception of additional guidance concerning variance
analysis procedures. That additional guidance did not affect the results of our audit.
3
  Before October 2006, the Defense Finance and Accounting Service-Denver received the monthly data and
prepared the cost of war report.


                                                  2
Review of Internal Controls
We identified a material internal control weakness regarding the oversight of the cost of
war report as defined by DoD Instruction 5010.40, “Managers’ Internal Control (MIC)
Program Procedures,” January 4, 2006. Although the internal controls outlined in Office
of Management and Budget Circular A-123, “Management’s Responsibility for Internal
Control,” December 21, 2004, and DoD Regulation 7000.14-R, “Department of Defense
Financial Management Regulation,” were adequate for preparing the cost of war report,
the USD(C)/CFO did not ensure that the DoD Components adhered to those internal
controls. A copy of this report will be provided to the senior official responsible for
internal controls in the Office of the Under Secretary of Defense (Comptroller)/Chief
Financial Officer. See the finding for further details on the material internal control
weakness.




                                            3
THIS PAGE LEFT INTENTIONALLY BLANK




                4
Finding. Oversight Over the Preparation of
the DoD Supplemental and Cost of War
Execution Report
The USD(C)/CFO needs to improve its controls over the DoD Components’ cost of war
reporting processes to provide reasonable assurance regarding the reliability of obligation
information reported in the “Department of Defense (DoD) Supplemental and Cost of
War Execution Report” (the cost of war report) for procurement and RDT&E. The
controls need improvement because the USD(C)/CFO did not:

          ensure that the DoD Components and subordinate reporting entities developed
           and issued standard operating procedures (SOP) or other supplemental guidance
           to reporting offices on contingency cost reporting, as specified in the Department
           of Defense Financial Management Regulation;
          ensure that the DoD Components and subordinate reporting entities verified
           reported cost data by obtaining and reviewing supporting documentation to ensure
           that the data were accurate, complete, supportable, and properly affirmed before
           submission to DFAS-IN for compilation into the cost of war report; and
          ensure that DoD Components submitted affirmation statements to DFAS-IN along
           with the monthly cost statements and associated analysis.

As a result, report users, such as Congress, cannot be assured that the report accurately
portrays a detailed accounting of obligations of appropriations provided for the
continuation of the GWOT. During the audit, the Office of the USD(C)/CFO began to
establish SOPs for the cost of war reporting process and DFAS-IN established a
performance measure to track and report the DoD Components compliance with existing
policy.

Cost of War Reporting Procedures and Requirements
Role of USD(C)/CFO in Report Compilation
DoD compiles and reports obligations incurred to support GWOT in monthly
supplemental and cost of war reports. Initial GWOT cost of war reports were generated
by Defense Finance and Accounting Service (DFAS)-Denver beginning in FY 2002. In
September 2005, the USD(C)/CFO directed DFAS to establish a capability to support the
USD(C)/CFO in Department-wide reporting and analysis requirements, such as the cost
of war report. On October 1, 2006, DFAS reorganized to establish the Standards and
Compliance Directorate under the Deputy for Operations, DFAS-IN.4 Since FY 2006,
the Standards and Compliance Directorate has been responsible for preparing monthly
reports on contingency operations, including GWOT, and for reviewing and
consolidating explanations of variances in obligation amounts from prior months.


4
    DFAS-Denver was responsible for preparing the cost of war report prior to October 2006.

                                                      5
Data Compilation Process for the Cost of War Report
DFAS-Denver compiled the original GWOT cost of war reports from a variety of non-
standardized sources provided by the DoD Components. In an effort to improve the
reporting process, DFAS-IN developed a standard electronic template for obtaining
obligation and disbursement data for the cost of war report. The DoD Components
prepare and submit their cost of war data to DFAS-IN through monthly submissions of
the template. DFAS-IN also established an edit and review process that includes a check
to ensure that all cells in the template are properly populated and that descriptions are
provided for any newly created data. DFAS-IN also compares the amounts reported for
the period against those from the prior period to ensure consistency. If discrepancies in
the cost of war report data are identified, DFAS-IN works with the DoD Components to
revise the data as necessary.

Once all of the data is reviewed and standardized, the DoD Business Transformation
Agency uploads the cost of war report data and generates the report. DFAS-IN, after
receiving the cost of war report from the Business Transformation Agency, then
compares the official printed version of the cost of war report with one that they create
using the original DoD Components’ submissions. If corrections to the report are not
required, DFAS-IN assembles the cost of war package, to include available affirmation
statements and footnotes from the DoD Components. DFAS-IN then transmits the final
cost of war report to the Office of the USD(C)/CFO. After that office reviews and
authorizes the release of the cost of war report, DFAS-IN releases the report. Appendix F
provides a flowchart of the cost of war reporting process.

Cost of War Reporting Guidance
Financial Management Regulation
DoD Regulation 7000.14-R, “Department of Defense Financial Management
Regulation,” volume 12, chapter 23 establishes policy and procedures for budgeting and
reporting for contingency operations. The September 2005 revision to the DoD Financial
Management Regulation states that each Component should develop adequate measures
for capturing actual costs from the accounting system. When actual costs are not
available, DoD Components should establish and document an auditable methodology for
capturing costs.

In addition to the requirements for contingency reporting, DoD Regulation 7000.14-R,
volume 6A, chapter 2, “Financial Reports Roles and Responsibilities,” March 2002,
states that the USD(C)/CFO is responsible for the development and approval of DoD
policy on financial reports and oversight of the issuance and implementation of such
policy.5 Further, the Regulation requires DoD Components to establish internal controls
to ensure the accuracy, completeness, timeliness, and documentary support for the data
generated by them and included in finance and accounting systems or submitted to DFAS
for input and recording in finance and accounting systems and financial reports. It also


5
 DoD Regulation 7000.14-R, volume 6A, chapter 2, was updated in November 2008. The update
contained the same requirements as the March 2002 version and did not affect the results of our audit.

                                                     6
requires the Director, DFAS to establish controls and procedures to ensure that the
process for preparing financial reports is consistent, timely, auditable, and that controls
are in place to provide for the accuracy of the reports.

USD(C)/CFO personnel stated that they did not consider the cost of war report a financial
report as defined by the DoD Regulation and therefore stated that the cost of war report
was not subject to the requirements outlined in the DoD Financial Management
Regulation, volume 6A, chapter 2. Because DoD comptrollers and budget officers use
their accounting systems to produce financial information for the cost of war report, they
should, as a best business practice, use the internal controls specified in the DoD
Financial Management Regulation to ensure that Congress is provided reliable cost
information in the cost of war report. Internal controls in the DoD Financial
Management Regulation address efficient and effective processes and controls for
compiling and reporting financial cost data. Implementation of these financial reporting
controls is prudent because the cost of war report is a fundamental tool that Congress
uses in the oversight and assessment of DoD requests for additional GWOT funding. The
cost of war report assists Congress and DoD managers in planning and budgeting for
future costs and in identifying and funding the warfighters’ priorities. Implementing the
internal controls in the DoD regulation to ensure the accuracy, completeness, timeliness,
and documentary support for the cost data will enable DoD to provide lawmakers,
decision makers, and the public with sufficiently reliable information to help them make
fully informed policy and program decisions.

Affirmation Statement Requirements
The USD(C)/CFO memorandum, “Accuracy of Contingency Operation and Disaster
Relief Cost Reports,” March 3, 2006, requires DoD Components to attest to the accuracy
of monthly cost of war reports and affirm in writing that the report provides a fair
representation of ongoing activities. Specifically the affirmation guidance requires an
overseeing official at each DoD Component to sign the statement attesting to the
accuracy of the submission. The USD(C)/CFO memorandum, “Affirmation Authority
for Contingency Operation and Disaster Relief Cost Reports,” June 30, 2006, revised the
guidance in the March 3, 2006, memorandum. The June 30, 2006, memorandum allows,
with restrictions, the DoD Components to delegate the affirmation responsibility below
the Assistant Secretaries for Financial Management for the Military Departments and the
Comptroller for the Defense agencies. See Appendix D for the March 3, 2006,
memorandum and Appendix E for the June 30, 2006, memorandum.

Oversight of DoD Components’ Internal Controls for
Cost of War Reporting
Audit Verification of DoD Component Reporting of Cost Data
DFAS-IN identified 25 DoD Components that provided cost data for the monthly DoD
cost of war reports from July 1, 2006, through June 30, 2007. From that list, as shown in
Appendix C, we judgmentally selected for review the Army, Navy, Air Force, and
Marine Corps because they represented approximately 99 percent of the procurement and
RDT&E funds that DoD reported in the cost of war report for that reporting period. We

                                              7
also selected for review 10 subordinate reporting entities below the headquarters level.
Specifically, we determined whether those DoD Components and select subordinate
entities had SOPs for submitting cost of war data to DFAS-IN and whether the cost data
submitted to DFAS-IN were verified using supporting documentation. In addition, we
determined whether those DoD Components provided affirmation statements with the
cost data they reported to DFAS-IN. The USD(C)/CFO does not require the subordinate
entities we reviewed to submit affirmation statements. The reporting offices for those
subordinate reporting entities are the Assistant Secretaries of the Army, Navy, and
Air Force (Financial Management and Comptroller) and the Marine Corps Program and
Resources Department, respectively. The following table summarizes the results of our
review. Appendix G provides a detailed discussion of those results.

          Determination of Whether Organizations Prepared Standard Operating
          Procedures, Verified Cost Data, and Submitted Affirmation Statements

                                                            Standard         Verifying        Submitted
                                                           Operating           Cost           Affirmation
             DoD Component                                 Procedures          Data            Statement

Army Comptroller                           Preparing                         Partially1            No
  Appropriation Sponsor for Other
    Procurement, Army                         No                              Partially      Not Required
      Army Materiel Command                   No                              Partially      Not Required
  Appropriation Sponsor for Weapons
    and Tracked Combat Vehicles               No                              Partially      Not Required
      Rapid Equipping Force                   No                              Partially      Not Required
  Appropriation Sponsor for Research,
    Development, Test, and Evaluation, Army No                                Partially      Not Required
      Defense Advanced Research
       Projects Agency                        No2                                No          Not Required

Navy Comptroller                                           Preparing          Partially       Sometimes
   Naval Air Systems Command                                  No              Partially      Not Required
   Naval Sea Systems Command                               Preparing          Partially      Not Required
   Naval Strategic Systems Programs                           No              Partially      Not Required

Air Force Comptroller                                      Preparing          Partially       Sometimes

Marine Corps Program and Resources
 Department                                                Preparing          Partially          No3
  Marine Corps Systems Command                                No              Partially      Not Required
1
    Partially means that the DoD Components or executing agencies performed some verification; however,
    the verification was not conducted using actual supporting documentation but instead using data
    generated directly from the financial accounting systems or externally generated spreadsheets.
2
    We limited the applicability of SOPs to organizations that received GWOT supplemental and bridge
    funding directly and on a continuous basis.
3
    The Marine Corps’ attestation of its cost of war data is encompassed in the Navy’s affirmation letter
    submission.




                                                       8
Developing and Issuing Standard Operating Procedures
We reviewed the cost of war reporting processes for the Army, Navy, Air Force, Marine
Corps and for 10 subordinate entities below the headquarters level. Of the four DoD
Components and 10 subordinate entities we reviewed, none had developed or issued
SOPs as specified in DoD Financial Regulation 7000.14-R. However, during the audit,
the Army, Navy, Air Force, and the Marine Corps began to develop SOPs for their cost
of war reporting process. The Regulation states that each DoD Component should
develop measures for capturing actual costs, and when actual costs are not available,
establish and document an auditable methodology for capturing costs.

During the audit, we determined that each DoD Component and subordinate entity had
informal and varied processes and procedures for reporting cost of war data. Instead of
relying on SOPs, the DoD Components and subordinate entities primarily used e-mail
instructions provided to them with the electronic report template. For an additional
explanation of these varying processes, see Appendix G.

Verifying Reported Cost of War Data
In previous reports, GAO identified numerous problems with the processes and
procedures DoD uses for reporting cost of war data. These concerns, coupled with the
long-standing deficiencies of DoD’s financial systems, have called into question the
accuracy and the reliability of the cost of war reports. They also strengthen the argument
that DoD Components should, at a minimum, validate and verify the accuracy of the cost
data reported for GWOT. Although the USD(C)/CFO did not consider the cost of war
report a financial report and therefore not subject to the same controls as specified in the
DoD Financial Management Regulation, DoD Components, as a best business practice,
should adhere to the internal controls in the Regulation to ensure the accuracy and
completeness of accounting data included in the cost of war report. Further, the DoD
Financial Management Regulation, does state that for contingency reporting, DoD
Components must provide documentary support and methodologies for generating cost
data not readily available in the accounting systems.

During our audit, we determined that the DoD Components and subordinate entities we
reviewed did not verify the accuracy of reported cost of war data against supporting
documentation such as contracts awarded or purchase requests. Instead, we found that
most of the DoD Components and subordinate entities typically compared reported cost
data to the accounting system from which the data were obtained, or to internally
generated spreadsheets.

Submitting Affirmation Statements
DoD Components did not always submit affirmation statements attesting to the accuracy
of their cost of war reporting, as required by the March 3, 2006, USD(C)/CFO guidance.
The memorandum requires the DoD Components to submit affirmation




                                             9
statements to DFAS-IN with their monthly cost of war submissions. It also requires
DFAS-IN to include the affirmation statements in its monthly cost of war reports.

          The Offices of the Assistant Secretary of the Army and the Marine Corps
           Program and Resources Department did not submit any affirmation
           statements,

          the Office of the Assistant Secretary of the Navy submitted four affirmation
           statements, and

          the Office of the Assistant Secretary of the Air Force submitted one
           affirmation statement.

We reviewed cost of war reports and corresponding affirmation statement submissions
from July 1, 2006, through June 30, 2007. The Offices of the Assistant Secretaries of the
Army, Navy, and Air Force (Financial Management and Comptroller) and the Marine
Corps Program and Resources Department reported $31.2 billion in GWOT supplemental
funding for procurement and RDT&E for the 12-month period that required, in total,
48 affirmation statements from the 4 DoD Components reviewed. Based on
documentation obtained from DFAS-IN for the period, only 5 of those 48 statements
were submitted for the period.

The team followed up with a DFAS-IN representative to confirm our results. The
representative stated that the affirmation statements included in the final cost of war
report submission for the scope of the audit were provided for our review. If the DoD
Components submitted affirmation statements after the due date, DFAS-IN did not
include them in the cost of war report, and therefore the affirmation statements were
excluded from our review. However, we did note that during the 12-month period from
July 1, 2006, to June 30, 2007, the Navy and the Air Force Comptroller did submit some
affirmation statements after the due date DFAS-IN required. As a consequence, those
statements were not included in the DoD’s final cost of war report submissions and were
not included in our review. A representative from the USD(C)/CFO stated that the Navy
affirmation statements also attest for the submission of the Marine Corps.

Effect on DoD Components’ Compliance With Internal
Control Requirements
The control environment is a key component in mitigating risk of financial reporting
errors. For the USD(C)/CFO to have a strong control environment, standard policies and
procedures must be developed, well-communicated, understood, and followed. Without
these controls in place, management will not, for example, be able to assert that:

          all reported transactions actually occurred during the reporting period,

          all transactions that should have been reported were included and no
           unauthorized transactions were included, and

          internal control and source documentation were readily available for
           examination.


                                            10
Without further improvements of the internal controls over the DoD Components’ cost of
war reporting processes to include the implementation of best business practices for
financial reporting as specified in the DoD Financial Management Regulation, the
USD(C)/CFO cannot ensure that cost of war data provided to Congress are accurate,
complete, and supported. Further, report users and decision makers, like Congress,
cannot be assured that the report accurately reflects the use of procurement and RDT&E
supplemental appropriations provided for the continuation of GWOT. As a result, the
USD(C)/CFO needs to continue its work to enhance the controls over the financial
reporting process for cost of war data. Specifically, the USD(C)/CFO should:

          verify that the DoD Components and subordinate reporting entities have
           developed and issued SOPs or other supplemental guidance and have included
           in those a requirement to include affirmation statements with their cost of war
           data;

          require the DoD Components and subordinate reporting entities to verify that
           their cost data are accurate, complete, supportable, and properly affirmed by
           obtaining and reviewing supporting documentation submitted by reporting
           offices before submission to DFAS-IN for compilation into the “Supplemental
           and Cost of War Execution Report”; and

          require DFAS-IN to ensure the submission of affirmation statements that
           accompany the monthly cost statements and associated analysis submitted by
           the DoD Components.

By taking the above action, the USD(C)/CFO can further improve the reliability of the
information and cost data included in the report and strengthen its credibility with
Congress and the public.

Actions Taken to Improve Cost of War Reporting
Process Improvements
On March 7, 2007, the Principal Deputy Under Secretary of Defense (Comptroller),
established the GWOT Cost of War Reporting Project Management Office as an initiative
to improve the GWOT reporting process. Specifically, the project management office is
responsible for producing high-level SOP guidance for funds distribution, execution, and
reporting. Some project management office initiatives include:

                 standardizing business processes,

                 managing information,

                 ensuring that the report information is supported and can be audited,

                 providing analysis of war costs and execution,

                 providing timely data to decision makers,




                                           11
                 streamlining data collection processes, and

                 validating the methods used for allocating cost.

More specifically, the project management office is working to develop an SOP template
for contingency operations to assist the DoD Components with preparing SOPs for cost
of war reporting. The project management office is also working to create a standardized
execution and fund distribution template that the DoD Components can populate with
data for the cost of war. Additionally, the project management office, to improve the
accuracy, reliability, timeliness, and transparency of GWOT cost of war reporting, is
developing a new automated system for collecting, validating, and reporting monthly or
quarterly cost of war financial data that is scheduled to be deployed beginning in
FY 2009.

In addition to the work of the project management office, the USD(C)/CFO continues to
establish controls to enforce the requirement that DoD Components submit affirmation
statements with the monthly cost of war data and associated analysis. On October 29,
2007, the USD(C)/CFO issued additional guidance related to the affirmation of the
accuracy of monthly reports and review of variance analysis. Further, during our audit,
the Assistant Secretaries of the Army, Navy, and Air Force (Financial Management and
Comptroller) and the Marine Corps Program and Resources Department began preparing
SOPs and coordinating those efforts with DFAS-IN. In addition, the DoD Components,
while developing their SOPs, plan to include guidance regarding affirmation statement
submissions. The DoD Components also plan to include in the guidance an affirmation
checklist that they must follow and submit along with the affirmation statements in order
to ensure completeness of the cost of war report data. Lastly, during the audit, DFAS-IN
established a cost of war reporting performance measure to track, measure, and report the
DoD Components’ compliance with existing policy.

Management Comments on the Finding and Our Response
Summaries of management comments of the finding and appendices of this report and our
responses are in Appendix H.

Recommendations, Management Comments, and Our
Response
We recommend that the Under Secretary of Defense (Comptroller)/DoD Chief
Financial Officer:

       1. Verify that the DoD Components and subordinate reporting entities have
developed and issued standard operating procedures and ensure that the standard
operating procedures reiterate the requirement to include affirmation statements
with their cost of war data for the “Supplemental and Cost of War Execution
Report,” in accordance with DoD Regulation 7000.14-R, “Department of Defense
Financial Management Regulation,” volume 12, “Special Accounts, Funds and
Programs,” chapter 23, “Contingency Operations,” September 2007.


                                           12
       2. Require the DoD Components and subordinate reporting entities to verify
that their cost data are accurate, complete, supportable, and properly affirmed by
obtaining and reviewing supporting documentation submitted by reporting offices
before submission to the Defense Finance and Accounting Service-Indianapolis for
compilation into the “Supplemental and Cost of War Execution Report,” in
accordance with DoD Regulation 7000.14-R, “Department of Defense Financial
Management Regulation,” volume 6A, “Reporting Policies and Procedures,”
chapter 2, “Financial Reports Roles and Responsibilities,” March 2002.

       3. Require the Defense Finance and Accounting Service-Indianapolis to
ensure the submission of affirmation statements that accompany the monthly cost
statements and associated analysis submitted by the DoD Components.

Office of the Under Secretary of Defense (Comptroller)
Comments
The Acting Deputy Chief Financial Officer agreed with the recommendations of this
report and provided additional comments on the report finding. In response to
Recommendation 1, he stated that, since the establishment of the Global War on Terror
Project Management Office and the Global War on Terror Senior Steering Group, DoD
has made numerous improvements in the GWOT cost reporting processes. Specifically,
he stated that the GWOT Project Management Office has assisted the Components in
preparing SOPs by outlining the data collection process and by outlining the requirements
for calculating variances, composing footnotes, and preparing affirmation statements.
Subsequently, the Acting Deputy Chief Financial Officer, in an October 31, 2008,
memorandum, required the Components to develop specific guidance and procedures and
to finalize those by February 25, 2009. In response to Recommendation 2, the Principal
Deputy Under Secretary of Defense (Comptroller) stated that, in a February 2008
memorandum, he directed the Components to review the accuracy of costs and provided
procedures for validating the accuracy of the obligations. Finally, to address
Recommendation 3 regarding the submission of affirmation statements and footnotes,
and the timeliness of those, the Acting Deputy Chief Financial Officer stated that DFAS
established a process for tracking missing affirmation statements and footnote
information. The procedures include identifying missing information to the
USD(C)/CFO. In addition, the GWOT Senior Steering Group is briefed quarterly on the
timeliness of the submission of affirmation statements and footnotes, and on Components
with outstanding affirmation statements. Further, he stated that DFAS follows up on
missing Component information until it is received.

Our Response
The comments of the Acting Deputy Chief Financial Officer were responsive.




                                           13
THIS PAGE LEFT INTENTIONALLY BLANK




                14
       Appendix A. Scope and Methodology
We conducted this audit from May 2007 through August 2008, in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our finding and conclusions based on
our audit objectives.

Documentation and Information Reviewed
To accomplish the audit objectives, we reviewed the following documentation and
information dated from March 2002 through November 2007.

      “Department of Defense (DoD) Supplemental and Cost of War Execution
       Reports” that the Defense Finance and Accounting Service issued for the
       12-month period from July 2006 through June 2007; draft SOPs prepared by the
       Army, Navy, Air Force, and Marine Corps Components; and cost of war
       templates submitted by those Components.

      Cost of war reporting requirements in Conference Report 109-359, “Making
       Appropriations for the Department of Defense for the Fiscal Year Ending
       September 30, 2006, and for Other Purposes,” December 18, 2005; and Public
       Law 109-163, “National Defense Authorization Act for Fiscal Year 2006,”
       January 6, 2006.

      Key policies and principles that govern the cost of war reporting process. The
       mandatory policies and management principles reviewed were Office of
       Management and Budget Circular A-123, “Management’s Responsibility for
       Internal Control,” December 21, 2004; DoD Regulation 7000.14-R, “Department
       of Defense Financial Management Regulation,” September 2005; and Under
       Secretary of Defense (Comptroller) memorandums, “Accuracy of Contingency
       Operation and Disaster Relief Cost Reports,” March 3, 2006, and “Affirmation
       Authority for Contingency Operation and Disaster Relief Cost Reports,” June 30,
       2006.

      Deloitte and Touche final report, “Assessment of Department of Defense
       Financial Reporting on the Cost of the Global War on Terror,” for the Defense
       Finance and Accounting Service issued on September 30, 2007, that discussed the
       funds distribution process from apportionment to allotment for the Office of the
       Under Secretary of Defense (Comptroller), Army, Navy, Air Force, and Marine
       Corps Components; documented the application of funds methodology, processes,
       and data structures to include application, allocation, distributions, cost transfers,
       and expenditures for the Army, Navy, Air Force, and Marine Corps Components;




                                            15
       and provided a comparative analysis among the Components based on the
       processes and data structures resulting from the first two tasks.

Staff Contacted
We also contacted the staffs of the Offices of the Under Secretary of Defense
(Comptroller); the Defense Finance and Accounting Service, Denver; the Defense
Finance and Accounting Service, Indianapolis; the Army Materiel Command (AMC); the
Assistant Secretary of the Army (Financial Management and Comptroller); the Army
Rapid Equipping Force; the Assistant Secretary of the Navy (Financial Management and
Comptroller); the Naval Air Systems Command (NAVAIR); the Naval Sea Systems
Command (NAVSEA); the Naval Strategic Systems Programs (SSP); the Assistant
Secretary of the Air Force (Financial Management and Comptroller); the Marine Corps
Program and Resources Department; the Marine Corps Systems Command; and the
Defense Advanced Research Projects Agency (DARPA) to determine whether DoD was
accurately and completely reporting obligations of funds provided for procurement and
RDT&E in the cost of war reports.

Audit Methodology
The audit team evaluated the internal controls that comptroller personnel had
implemented for the cost of war reporting process at each Military Department’s
headquarters level. Because each Military Department had a unique process for
submitting the cost of war data, the audit team evaluated the headquarters-level process
and a subordinate organization below the headquarters level. If more than one
subordinate organization existed, then the audit team judgmentally chose which
subordinate organizations to review. Because the Army and Navy had at least
10 reporting subordinates that received procurement and RDT&E GWOT supplemental
funding, the audit team judgmentally selected a large, medium, and small subordinate
organization within the Washington, D.C., commuting area for those Components.

The audit team limited its evaluation of the cost of war reporting process to data provided
by the Army, Navy, Air Force, and Marine Corps for GWOT supplemental funding for
procurement and RDT&E. The audit team did not separately evaluate the quarterly cost
of war reporting process because DFAS prepares the quarterly reports using the same
obligation and disbursement data that it uses to prepare the monthly reports. In addition,
the audit team did not validate the cost of war data because GAO is conducting a series of
audits that address the validity of the data.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Prior Coverage
During the last 5 years, GAO, the DoD Inspector General (IG), and the Air Force Audit
Agency have issued 10 reports discussing supplemental funding authorized and obligated
for GWOT. Unrestricted GAO reports can be accessed over the Internet at


                                            16
http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted Air Force reports can be accessed at
http://www.afaa.hq.af.mil.

GAO
GAO Report No. GAO-08-853R, “Global War on Terrorism: Reported Obligations for
the Department of Defense,” June 13, 2008

GAO-08-423R Memorandum, “Subject: Global War on Terrorism: Reported Obligations
for the Department of Defense,” January 30, 2008

GAO Report No. GAO-08-68, “Global War on Terrorism: DoD Needs to Take Action to
Encourage Fiscal Discipline and Optimize the Use of Tools Intended to Improve GWOT
Cost Reporting,” November 2007

GAO 07-1056R Memorandum, “Subject: Global War on Terrorism: Reported
Obligations for the Department of Defense,” July 26, 2007

GAO 07-783R, Memorandum, “Subject: Global War on Terrorism: Reported Obligations
for the Department of Defense,” May 18, 2007

GAO Report No. GAO-07-76, “Global War on Terrorism: Fiscal Year 2006 Obligation
Rates Are Within Funding Levels and Significant Multiyear Procurement Funds Will
Likely Remain Available for Use in Fiscal Year 2007,” November 2006

GAO Report No. GAO-06-885T, “Global War on Terrorism: Observations on Funding,
Costs, and Future Commitments,” July 18, 2006

GAO Report No. GAO-05-882, “Global War on Terrorism: DoD Needs to Improve the
Reliability of Cost Data and Provide Additional Guidance to Control Costs,” September
2005

DoD IG
DoD IG Report No. D-2008-027, “Air Force Use of Global War on Terrorism
Supplemental Funding Provided for Procurement and Research, Development, Test, and
Evaluation,” November 21, 2007

Air Force
Air Force Audit Agency Report No. F2005-0011-FB1000, “Global War on Terrorism
Funds
Management,” June 20, 2005




                                           17
THIS PAGE LEFT INTENTIONALLY BLANK




                18
Appendix B. Glossary
Affirm. Affirm is to assert (as a judgment or decree) that information is valid or
confirmed.

Appropriation. An appropriation is an authorization enacted by Congress that permits
Federal agencies to incur obligations and make payments from the Treasury.

Bridge Appropriations. Bridge appropriations are emergency supplemental
appropriations that are added to regular annual appropriation bills to pay a portion of the
incremental funds needed for ongoing emergency operations. Generally, Congress
includes bridge appropriations in a separate title of the appropriation, usually under
Title IX of the United States Code.

Budget Authority. Budget authority is enacted through congressional legislation and
allows DoD to enter into obligations that will result in immediate or future outlays. It
may be classified by the period of availability, by the timing of congressional action, or
by the manner of determining the amount available.

Commitment. A commitment is an administrative reservation of funds by the
comptroller in anticipation of an obligation.

Contingency Operation. A contingency operation is a military operation that is
designated by the Secretary of Defense as an operation in which members of the Armed
Forces are or may become involved in military actions, operations, or hostilities against
an enemy of the United States or against an opposing military force. A contingency
operation is also considered a call or order to, or retention of, active duty of members of
the uniformed services during a war or during a national emergency declared by the
President or Congress.

Disbursement. A disbursement can be either a gross or net disbursement. Gross
disbursements represent the amount of checks issued, cash, or other payments less
refunds received. Net disbursements represent gross disbursements less income collected
and credited to the appropriation of fund account, such as amounts received for goods
and services provided.

Obligation. An obligation is a duty to make a future payment of money. The duty is
incurred as soon as an order is placed or a contract is awarded for the delivery of goods or
the performance of services, or both.

Operation Enduring Freedom. Operation Enduring Freedom is continuing the United
States’ efforts to track down terrorists and provide stability, primarily in Afghanistan, but
also includes operations in support of the Republic of the Philippines. The military
objectives of Operation Enduring Freedom include denying terrorist organizations access
to training camps and infrastructure, capturing Al Qaeda leaders and fighters, stopping


                                             19
terrorist activities against the United States and its allies, and preventing the reemergence
of international terrorist organizations. In Afghanistan, the objectives include destroying
the remaining Taliban and Al Qaeda organizations, training the Afghan National Army,
conducting civil-military operations, and providing support for the emerging government
of Afghanistan. The United States continues to hold terrorist detainees at the
Guantanamo Bay facility in Cuba in order to obtain tactical intelligence on current and
future terrorists operations.

Operation Iraqi Freedom. Operation Iraqi Freedom is continuing efforts to stabilize
Iraq, conduct stability and support operations throughout Iraq, capture Hussein regime
loyalists, and stop terrorists from using Iraq as a staging area for terrorism activities.

Operation Noble Eagle. Operation Noble Eagle is continuing efforts to defend the
United States from airborne attacks and maintaining United States air sovereignty.

Procurement Appropriations. Procurement appropriations fund those acquisition
programs that have been approved for production, including low-rate initial production of
acquisition objective quantities, and all costs integral and necessary to deliver a useful
end item intended for operational use or inventory upon delivery.

Research, Development, Test, and Evaluation Appropriations. Research,
development, test, and evaluation appropriations fund the efforts performed by
contractors and Government entities required for the research and development of
equipment, material, or computer application software, and associated test and
evaluation.

Supplemental Appropriations. Supplemental appropriations are enacted by Congress
as an addition to DoD’s regular annual appropriation. Supplemental appropriations
provide additional budget authority beyond original estimates for programs or activities
that are too urgent to be postponed until the next regular annual appropriation.

Title IX Appropriations. Title IX appropriations are usually bridge appropriations. See
definition for bridge appropriations.




                                             20
Appendix C. DoD Components Providing
Cost Data for the Cost of War Report

The following is a list of the 25 DoD Components that provide cost data for the DoD
supplemental and cost of war execution reports:

American Forces Information Service            Defense Security Service

Air Force                                      Defense Threat Reduction Agency

Army                                           DoD Education Activity

Counterintelligence Field Activity             DoD Inspector General

Defense Contract Audit Agency                  Joint Chiefs of Staff
Defense Contract Management Agency             Marine Corps

Defense Health Program                         Navy

Defense Human Resources Agency                 National Security Agency

Defense Information Systems Agency             Office of the Secretary of Defense

Defense Intelligence Agency                    Office of the Under Secretary of Defense
                                                (Comptroller)
Defense Legal Services Agency
                                               Special Operations Command
Defense Logistics Agency
                                               Washington Headquarters Service
Defense Security Cooperation Agency




                                          21
THIS PAGE LEFT INTENTIONALLY BLANK




                22
Appendix D. Under Secretary of Defense
(Comptroller) Memorandum Concerning Cost
Report Accuracy




                    23
24
Appendix E. Under Secretary of Defense
(Comptroller) Memorandum Concerning
Affirmation Authority




                    25
Appendix F. Cost of War Reporting Process
The following figure illustrates the DoD supplemental and cost of war execution
reporting process. The chart was compiled based on meetings with representatives from
the Defense Finance and Accounting Service.

The DoD Components, which are listed in Appendix C, prepare and submit their cost of
war data to the Defense Finance and Accounting Service-Indianapolis (DFAS-IN)
through monthly submissions of a DFAS template. After DFAS-IN receives the data, it
reviews the data to ensure that all cells in the template are properly populated. DFAS-IN
also reviews the data to ensure a consistency in the cost of war report format by
validating that the Components reported the correct period and reported costs in the
correct units.

Once all of the data is standardized, DFAS-IN contacts the Business Transformation
Agency to generate the report. After receiving the cost of war report from the Business
Transformation Agency, DFAS-IN performs yet another review of the data against mock
reports it constructs using the Components’ original cost submissions. If DFAS-IN does
not have any issues with the report, it assembles the cost of war package, including
available affirmation statements and footnotes, and transmits this package via e-mail to
the Office of the Under Secretary of Defense (Program/Budget). Once the Office of the
Under Secretary of Defense (Program/Budget) authorizes the release of the cost of war
report, DFAS-IN releases the report.




                                           26
  Cost of War Requirements                   DoD Components Providing Input for the Cost of War                                 Cost of War Report Processing           Cost of War Report Approval        Cost of War Report Release


                Public Law                                                                               DFAS Template1
Congress and                     DoD Components                                    DoD Components
                 109-163                                          DoD Components                      Footnotes to the Report
 OUSD (C)                       Reporting Agencies                                 Crosswalk to CBS
                                                                                                      Affirmation Statements
                   DoD FMR,
                   Volume 12,
                   Chapter 23                         CONOPS
                                                      Template

                                                                                     Affirmations          Affirmations
                                  23 Field Activity                                                      Footnotes                                       Consolidated                      Consolidated                            Consolidated
                                                                        Army        Footnotes
                                      Offices                                                                                                            Affirmations     OUSD (P/B)       Affirmations                            Affirmations
                                                                                   Crosswalk to         DFAS-IN                        DFAS-IN                                                                DFAS-IN
                                                                                   CBS                  Template                                        Consolidated                      Consolidated                           Consolidated
                                                      Populated                                                                                         Footnotes                         Footnotes                              Footnotes
                                                      CONOPS                                                                       DFAS-IN             Unapproved                        Approved
                                                      Template                                                                                                          OUSD (P/B)                                              Cost of War
                                                                                                                                   consolidates the    Cost of War      reviews report   Cost of War      DFAS-IN               Execution
                                                                                                                                   input from the      Execution        and authorizes   Execution        releases report       Report
                                                      Navy FMB                                                                     DoD Components      Report           release of the   Report
                                                      Template                                                                     to create the                        report.
                                                                                                                                   CoW report.
                                                                                     Affirmations          Affirmations            DFAS-IN:
                                                                                    Footnotes            Footnotes
                                    16 Budget                                                                                      1. Performs a
                                                                        Navy       Crosswalk to         DFAS-IN
                                 Submitting Offices                                                                                quality control
                                                                                   CBS                  Template
                                                                                                                                   check to ensure
                                                      Populated                                                                    consistent
                                                      Navy FMB                                                                     formatting.
                                                      Template                                                                     2. Notifies the
                                                                                                                                   Components of                                                                 Report Distribution
                                                                                                                                   any issues with
                                                      Air Force                                                                    the data and
                                                      Template                                                                     incorporates
                                                                                                           Affirmations            corrections
                                                                                     Affirmations
                                                                                                                                   provided by the                                                         Congress            OUSD(P)
                                                                                    Footnotes            Footnotes                 Components.
                                     Major
                                                                   Air Force                            DFAS-IN                    3. Sends data to
                                   Commands                                        Crosswalk to
                                                                                   CBS                  Template                   BTA2 for report
                                                      Populated                                                                    compilation.                                                              GAO               OUSD(C)
                                                      Air Force                                                                    4. Communicates
                                                      Template                                                                     to the
                                                                                                                                   components any
                                                                                                                                   required                                                                  OMB             OUSD(P&R)
                                                        CC                                                                         explanations.
                                                      Template                                                                     5. Validates the
                                                                                                                                   BTA-generated                                                             DoD
                                                                                     Affirmations          Affirmations            report against                                                                              Joint Staff
                                                                                                                                                                                                          Components
                                                                                    Footnotes            Footnotes                 report sample
                                     SYSCOM                          USMC                               DFAS-IN                    generated by
                                                                                   Crosswalk to
                                                                                                        Template                   DFAS-IN. DFAS-
                                                                                   CBS
                                                                                                                                   IN resolves any
                                                      Populated
                                                                                                                                   discrepancies.
                                                         CC
                                                                                                                                   6. Incorporates
                                                      Template
                                                                                                                                   footnotes and
                                                                                                                                   affirmation
                                                                                                                                   statements to the
                                                                                                                                   CoW report.
                                                      Template
                                                                                                                                   7. Finalizes the
                                                                                     Affirmations          Affirmations            report and sends
                                                                                                                                   it to OUSD(C) for
                                  Other Reporting                    Other          Footnotes            Footnotes                 review and
                                   Components                     Components3      Crosswalk to         DFAS-IN                    authorization to
                                                                                   CBS                  Template                   release.
                                                      Populated
                                                      Template




                                                         27
28
Appendix G. Implementation of Standard
Operating Procedures, Verification,
and Affirmation of Cost of War Data
Submitted by DoD Components and
Subordinate Entities Reviewed
The following summarizes the Army, Navy, Air Force, and Marine Corps and selected
subordinate entities processes and procedures for preparing the cost of war report for
procurement and RDT&E supplemental and bridge appropriations. Also included is
discussion about the implementation of standard operating procedures (SOP) with regard
to preparing the cost of war report, verification of cost data included in the report, and
submission of affirmation statements attesting to the accuracy of the data.

Army Components
Assistant Secretary of the Army (Financial Management and
Comptroller)
The Management and Control Directorate within the Army Budget Office, Office of the
Assistant Secretary of the Army (Financial Management and Comptroller) is responsible
for submitting the cost of war report to DFAS-IN. To do this, the Management and
Control Directorate receives cost of war input from the Investment Directorate,
consolidates the data into the DFAS report template, and provides the monthly cost of
war data to DFAS-IN.

Specifically, the Management and Control Directorate receives a monthly contingency
operations (CONOPS) report from the Investment Directorate. The CONOPS report
represents a reconciliation of appropriated GWOT supplemental and bridge procurement
and RDT&E funds to obligations and disbursements for each fiscal year. The
Management and Control Directorate uses the data from the CONOPS report to prepare
the investment portion of the monthly cost of war report submission to DFAS-IN.

The Investment Directorate obtains cost of war data from Army investment appropriation
sponsors for procurement and RDT&E. Specifically, the Investment Directorate receives
cost of war data input from six investment appropriations sponsors. Each appropriation
sponsor is responsible for collecting cost of war data from Army field and executing
activities, to include program executive offices and Defense operating agencies. After
obtaining that data, the Army Budget Officer Staff Coordinator for Investments
consolidates all execution updates into a master spreadsheet for that particular month.
The staff coordinator reviews the data for accuracy by examining changes from the
previous month for each appropriation and program to ensure cumulative obligations and
disbursements have increased and have not exceeded funding levels. The staff
coordinator then forwards the consolidated CONOPS spreadsheet to the Management and


                                            29
Control Directorate. Personnel from the Management and Control Directorate
consolidate the investment data along with other cost of war appropriations data into the
DFAS template and submit the template to DFAS-IN.

During our review, the Army Budget Office was preparing SOPs for providing cost of
war data to DFAS-IN. In addition, a representative of the Army Budget Office stated that
the Management and Control Directorate verified the format but not the accuracy of the
cost of war data provided by subordinate entities.

For the July 1, 2006, through June 30, 2007, reporting period, the Management and
Control Directorate did not submit affirmation statements to DFAS-IN. A directorate
representative stated that the directorate did not consistently sign and submit affirmation
statements with the submission of cost of war data on a monthly basis. Further, the
directorate neither required the appropriation sponsors nor the Army field activities to
provide an affirmation statement with the cost data that it provided to the directorate.

For the purposes of this review, we selected the following three appropriation sponsors
for review: Weapons and Tracked Combat Vehicles; Other Procurement, Army; and
Research, Development, Test, and Evaluation, Army. From the list of Army field
activities and Defense operating agencies, we judgmentally selected for review one
executing activity from each of the three appropriation sponsors. Those executing
activities were the Army Materiel Command (AMC), the Army Rapid Equipping Force,
and the Defense Advanced Research Projects Agency (DARPA), an organization within
the Office of the Secretary of Defense.

Army Appropriation Sponsors
The Appropriation Sponsors for Weapons and Tracked Combat Vehicles; Other
Procurement; and Research, Development, Test, and Evaluation receive the CONOPS
report template monthly from the Investment Directorate. The appropriation sponsors
review the CONOPS information, make adjustments where necessary, and forward the
template to each of their respective Army field activities. The field activities extract
monthly obligation and disbursement amounts for each program from their accounting
systems and enter that information into the template. After review and approval of the
data, the field activities submit the completed template back to their appropriation
sponsors, who subsequently review the data for any obligations over funding levels, the
use of the proper reporting period, and comments. Once reviewed, the appropriation
sponsors approve the data and forward it to the Investment Directorate. Although the
data are reviewed, the appropriation sponsors do not reconcile the data to supporting
documentation from the field activities.

Although the Army Budget Office was preparing SOPs that included general procedures
for the appropriation sponsors to follow in their preparation of the cost of war report
template, the appropriation sponsors did not have unique procedures to supplement the
overarching SOPs. In addition, neither the USD(C)/CFO nor the Army Budget Office
required the appropriation sponsors or executing activities to submit affirmation
statements with their cost of war submissions.


                                             30
Army Materiel Command
AMC, a field activity, receives the CONOPS report template monthly by e-mail from the
appropriation sponsor for Other Procurement, Army. After receiving the template, a
budget analyst at AMC forwards the template to the major subordinate commands that
populate the templates with data obtained from the Standard Operation and Maintenance
Army Research and Development System, an accounting system, and return the
templates along with their remarks to the AMC budget analyst. The AMC budget analyst
reconciles the major subordinate commands’ data to obligations posted in their resource
management system and reviews the remarks. Upon review, the AMC budget analyst
consolidates the templates into one template for the command and submits the final
template to the appropriation sponsor. At the time the team met with AMC
representatives, they stated that AMC had not established SOPs to document its process
for populating and submitting data in the CONOPS report template. In follow up, AMC
representatives stated that the process will be included and documented in their division
SOPs. AMC was not required to submit affirmation statements with its CONOPS report
submissions to the appropriation sponsor.

Army Rapid Equipping Force
The Army Rapid Equipping Force, a field activity, receives the CONOPS report template
monthly by e-mail from the appropriation sponsor for Weapons and Tracked Combat
Vehicles. After receiving the template, a budget analyst populates the obligation and
disbursement fields by using an internal ledger system to identify applicable obligation
documents in the accounting system that were approved during the reporting period.
Because the accounting system was not designed to view disbursement data, an assistant
analyst must contact the Army Resource Management Office to obtain that data. Once
the disbursement data are provided, the budget analyst inputs them into the CONOPS
template and validates the data by comparing the total obligations to those in the internal
ledger and accounting system. In addition, the budget analyst ensures that the revised
amounts column and the total amount column in the CONOPS template are equal. If the
two are not equal, an explanation is provided in the remarks section of the template.
The Rapid Equipping Force did not establish SOPs for its reporting process, stating that it
considered the e-mail guidance it was provided along with the CONOPS template
sufficient. In addition, the Rapid Equipping Force was not required to provide
affirmation statements to the appropriation sponsor with its submission of the CONOPS
report template.

Defense Advanced Research Projects Agency
In June 2007, DARPA received GWOT supplemental RDT&E funding from the Army.
Because DARPA received GWOT funding, the Army Budget Office provided DARPA,
by e-mail, the CONOPS report template that was to be used for recording obligation and
disbursement data for cost of war reporting purposes. According to DARPA officials,
DARPA was not aware of the reporting requirement and consequently did not populate or
submit the CONOPS template. To obtain DARPA obligation and disbursement data for
cost of war reporting purposes, representatives from the Army Budget Office stated that
they instead worked through the Assistant Secretary of the Army (Acquisition, Logistics,
and Technology) and their counterparts at DARPA to obtain obligation and disbursement


                                            31
data. DARPA representatives further stated that because they do not regularly receive
GWOT supplemental funding, they did not have SOPs nor were they required to
complete affirmation statements attesting to the accuracy of the reported costs.

Navy Components
Assistant Secretary of the Navy (Financial Management and
Comptroller)
The Office of Budget within the Office of the Assistant Secretary of the Navy (Financial
Management and Comptroller), which is also referred to as Financial Management
Budget (FMB), is responsible for the cost of war data submission to DFAS-IN. To
prepare the submission, FMB obtains input for the cost of war report from 16 Navy
budget submission offices using a template that FMB developed specifically to capture
cost of war data. Monthly, the budget submission offices complete the template and
forward it to FMB. The budget submission offices report obligations and disbursements
from their accounting systems for GWOT procurement and RDT&E supplemental funds
provided to their respective commands. The offices are responsible for the accuracy of
the information they submit to FMB. Along with the cost of war templates, FMB also
requires the budget submission offices to provide monthly affirmation statements
attesting to the accuracy of their input. After the budget submission offices provide their
input, FMB consolidates the cost data from each of the budget submission offices and
consolidates the data into the DFAS-IN cost of war report template.

To verify the cost of war data reported in the DFAS-IN template, an FMB analyst
compares the data from the budget submission offices with their annual spending plan. If
discrepancies are identified, the analyst addresses those with the appropriate budget
submission office and requests explanations as required. FMB submits the cost of war
template to DFAS-IN along with a completed affirmation statement. DFAS-IN provided
the affirmation statements that accompanied the cost of war reports for the period July 1,
2006, through June 30, 2007. Based on the documentation we reviewed, FMB provided
only four affirmation statements to DFAS-IN. A representative from DFAS-IN clarified
that affirmation statements provided by the DoD Components after the due date were not
included in the cost of war report. In a later follow up, an FMB representative stated that
they submitted to DFAS-IN 11 of the 12 statements required, missing only November;
and provided to us 10 of those affirmation statements. The team compared both
affirmation statements provided by Navy FMB and DFAS-IN and determined that FMB
submitted 10 of the 12 affirmation statements within July 2006 to June 2007; however,
seven of them were submitted late. As a result, they were not included in the cost of war
report. Further, an FMB representative stated that although the Navy had not established
SOPs for its cost of war reporting process, FMB was working with DFAS-IN to do so.
From the 16 budget submission offices that report cost of war data to FMB, we
judgmentally selected for review a large, medium, and small office based on funding and
location. Those budget submitting offices were the Naval Air Systems Command
(NAVAIR), the Naval Sea Systems Command (NAVSEA), and the Naval Strategic
Systems Programs (SSP) office.



                                            32
Naval Air Systems Command
NAVAIR uses cost data from its accounting system to populate the FMB template.
NAVAIR representatives stated that beginning with FY 2006 funds and without direction
from FMB, NAVAIR management decided to use codes to track the different types of
funding in its accounting system. Specifically, NAVAIR established functional area
codes in its accounting system to differentiate among annual, supplemental, and bridge
funds. NAVAIR financial analysts assign and record functional area codes on accounting
documents and in the accounting system as the funds are executed. Using those codes,
NAVAIR personnel obtain monthly obligation and disbursement data specifically related
to the cost of war from the accounting system and populate the FMB template. NAVAIR
representatives stated that additional verification of the cost data is not done. Rather,
they rely on data provided in the accounting system and the controls that are in place to
verify the accuracy of the data as funds are executed. Based on the USD(C)/CFO
memorandum, “Accuracy of Contingency Operation and Disaster Relief Cost Reports,”
March 3, 2006, NAVAIR was not required to submit affirmation statements along with its
cost of war submission. Also, it did not have documented SOPs outlining its processes
and procedures for compiling and submitting the cost of war data to FMB.

Naval Sea Systems Command
FMB provides NAVSEA with a cost of war template to populate and submit monthly.
At the end of each month, a NAVSEA financial analyst requests that the program offices
download an updated version of the template from the NAVSEA Business Financial
Managers and Comptrollers Competency Web site. The program offices are asked to
update the template and save it to the Web site. In addition to completing the cost of war
report template, the program offices are required to submit a back-up spreadsheet as an
audit trail to support the reported costs. Each spreadsheet provides by project a brief
description of the project, a budget line and project unit, document number, current
funding amounts, and the end of year costs. NAVSEA requires affirmation statements to
ensure that the submitting program offices comply with prescribed guidance and that
reported costs are accurate.After populating the cost of war report template, the program
offices inform NAVSEA that the template is complete and electronically submit the cost
data along with the back-up spreadsheet and affirmation statement. The NAVSEA
financial analyst then consolidates the data into an overall FMB cost of war report
template. During that process, the financial analyst determines whether the cost data are
accurate by reconciling the program office data to the data recorded in the NAVSEA
accounting system and to the information provided in the back-up spreadsheets. If the
analyst identifies discrepancies, the analyst will work with the program office to
reconcile the discrepancy. After verifying the cost of war data, the NAVSEA
Comptroller:

          reviews a summary of the cost of war data by contingency, month, total, and
           projected end of year amount;

          reviews the program office back-up spreadsheets and affirmation statements;
           and

          signs a NAVSEA affirmation statement.


                                            33
Once complete, the NAVSEA financial analyst submits the cost of war template and
affirmation statement electronically to FMB.

As of September 2007, NAVSEA no longer required that program offices submit the
back-up spreadsheets to support their cost of war data submissions. NAVSEA
representatives stated that they rely on the cost data generated by the accounting system
to serve as their support for the submission.

Naval Strategic Systems Programs
The Naval SSP representative explained that Navy FMB declared a portion of the annual
funds in the SSP Physical Security Equipment budget line as GWOT supplemental funds.
Navy FMB accordingly provided SSP with the monthly cost of war data template to
report the status of its use of these supplemental funds. Since SSP did not receive
guidance from Navy FMB to separately code or differentiate the funds that were deemed
supplemental, SSP financial analysts did not separately track the funds in the accounting
system. Consequently, SSP populated the cost of war data template with the total
obligations using both annual and supplemental funding. When SSP submitted the
template to FMB, SSP noted that the amount reported contained annual appropriations.
SSP financial analysts verified the reported cost data information to the accounting
system but did not have an SOP that outlined the processes and procedures for reporting
cost of war data. SSP followed the same SOPs that it used for preparing reports on its
use of annual appropriations and although not required, SSP representatives stated that
they submitted the monthly template and also provided an affirmation statement.

Air Force Components
Assistant Secretary of the Air Force (Financial Management and
Comptroller)
On April 3, 2007, the Director, Budget Investment, Office of the Assistant Secretary of
the Air Force (Financial Management and Comptroller) (ASAF[FM&C]) issued a
memorandum, “Global War on Terrorism Cost of War Reporting,” to the financial
managers at the Air Force major commands stating that the current cost of war reporting
“method cannot guarantee accuracy and cannot be duplicated by external agencies.” The
memorandum requires each major command that receives supplemental funding to report
monthly on GWOT obligations and expenditures at the line item level of detail. The
memorandum also reiterates the requirement of Air Force comptrollers and budget
officers to apply Emergency and Special Program codes to GWOT supplemental and
bridge funding obligations. The Office of the Deputy Assistant Secretary of the Air
Force for Financial Management and Comptroller, Directorate of Budget Investment
(SAF/FMBI) analysts plan to run a report in the accounting system to validate that all
GWOT funding was properly coded in the accounting system and work any discrepancies
identified with the major commands to ensure that the discrepancies are corrected before
the end of the month. In addition, the memorandum states that the Office of the
ASAF(FM&C) is in the process of developing a separate database for recording monthly
GWOT obligations and expenditures. The Office of ASAF(FM&C) intends to use the
database to produce the monthly cost of war data submission.


                                            34
In November 2007, during the audit, SAF(FMBI) established SOPs identifying the
processes and procedures for cost of war reporting. During the 12-month reporting
period ending on June 30, 2007, SAF(FMBI) submitted only one affirmation statement,
attesting for the January 2007 cost data, with cost of war of submissions to DFAS-IN.
The team made this determination based on the affirmation statements provided by
DFAS-IN. A DFAS-IN representative clarified that only affirmation statements
submitted before the due date were included in the cost of war report and that affirmation
statements received after the due date were not considered part of the cost of war report.
An Air Force representative stated that they submitted affirmation statements for the
12-month reporting period ending on June 30, 2007, and acknowledged that DFAS-IN
did not include them because the Air Force did not meet the suspense date. The Air
Force representative provided the affirmation statements to us and the team verified that
for the 12-month period, the Air Force submitted its affirmation statements after the due
date.

DoD IG Report No. D-2008-027, “Air Force Use of Global War on Terrorism
Supplemental Funding Provided for Procurement and Research, Development, Test, and
Evaluation,” November 21, 2007, reported that the Air Force did not always separately
identify the type of appropriations, but instead combined GWOT appropriations with
annual appropriations in the accounting system. For that reason, SAF/FMBI reported
estimated costs. Specifically, Directorate personnel used cost data from the DFAS
“Appropriation Status by FY Program and Subaccounts” report to derive the Air Force’s
monthly GWOT obligations and disbursements for procurement and RDT&E
supplemental and bridge funds. SAF/FMBI analysts stated that they considered as
GWOT the first dollars spent up to the total amount of the supplemental and bridge funds
allocated. Every dollar spent after that point, the Air Force budget analysts considered to
be obligations and expenditures of annual appropriations. Because the Air Force used
approximations instead of actual costs, the Air Force budget analysts could not verify the
accuracy of the amounts reported to supporting obligation documentation.

Marine Corps Components
Marine Corps Program and Resources Department
The Marine Corps Program and Resources Department (the Department) is responsible to
the Commandant of the Marine Corps for Marine Corps financial requirements, policies,
and programs. The Department receives monthly cost of war data from the Marine Corps
major commands and submits that data to DFAS-IN. By the first of each month, the
Contingency Cell within the Department provides the submitting commands a template
by e-mail to populate with monthly cost of war obligations and disbursements, which
they obtain from the Marine Corps accounting system. After populating the template
with cost of war obligations and disbursements, the submitting commands return the
completed templates to the Contingency Cell. The Contingency Cell personnel verify the
data in the templates by comparing them with that available in the accounting system. If
a discrepancy is identified, the Contingency Cell personnel work with the command to
reconcile the discrepancy. After verifying the data, Contingency Cell personnel


                                            35
consolidate the data from the commands into the DFAS cost of war data template, and
submit the cost of war template directly to DFAS-IN. A courtesy copy of the cost of war
template is provided to the Navy.

For the 12-month period ending June 30, 2007, the Department did not submit
affirmation statements to DFAS-IN with its cost of war report template. Instead, a
Marine Corps representative stated that they assumed that the Navy affirmation letters
were also intended to apply to the Marine Corps submission. In addition, the Department
did not have SOPs in place to describe the cost of war reporting process. In July 2007,
Department personnel began to develop SOPs. As of November 2007, the Marine Corps
had submitted to DFAS-IN a draft of its SOPs.

Marine Corps Systems Command
Of the 28 Marine Corps submitting commands, the Marine Corps Systems Command was
the only command to receive procurement and RDT&E supplemental GWOT funds from
July 1, 2006, through June 30, 2007. To prepare the cost of war data submission, the
command receives a cost of war template by e-mail each month from the Marine Corps
Program and Resources Department. The Marine Corps Systems Command analysts
gather cost of war data from accounting reports for obligations and disbursements
incurred during the previous month and use it to populate the template. The Marine
Corps Systems Command does not verify the submission prior to providing it to the
Marine Corps Program and Resources Department because it relied in its accounting
system and the verification process that occurs at the moment of committing funds in the
accounting system.

At the time of our visit, the representatives of the Marine Corps Systems Command
stated that they did not have SOPs for their cost of war reporting process. Because the
Marine Corps Systems Command receives its guidance from the Department, the
representatives stated that they considered any guidance received from the Department to
be their SOPs for preparing the cost of war data submission. Further, a representative
from the command stated that the Department did not require the Marine Corps Systems
Command to provide affirmation statements with the completed template.




                                           36
Appendix H. Management Comments on the
Finding and Appendices and Our Response
Our detailed response to the comments from the First Assistant, Deputy Assistant
Secretary of the Navy (Financial Management and Comptroller); the Acting Inspector
General, Department of the Navy, responding for the Commander, Naval Air Systems
Command; and the Comptroller, Defense Advanced Research Project Agency on the
draft report finding and appendices of this report follow. The complete text of those
comments can be found in the Management Comments section of this report.

Office of the Assistant Secretary of the Navy (Financial
Management and Comptroller) Comments
Although not required to comment, the First Assistant, Deputy Assistant Secretary of the
Navy (Financial Management and Comptroller) agreed with the report recommendations.
Specifically, he stated that on September 29, 2008, his office issued guidance on
capturing and reporting contingency operation costs in Navy accounting systems. The
guidance requires Navy budget submitting offices to report and track all contingency
costs regardless of source. The First Assistant further stated that in the memorandum,
“Accuracy of Department of Defense (DoD) Supplemental & Cost of War Execution
Report for Global War on Terrorism,” dated April 28, 2006, his office also required Navy
budget submitting offices to attest to the accuracy and affirm that budget monthly cost
reports provide a fair representation of ongoing activities related to contingency
operations. He further stated that all reporting components were directed to comply with
the DoD Financial Management Regulation, volume 12, chapter 23.

Our Response
Implementation of the First Assistant, Deputy Assistant Secretary of the Navy (Financial
Management and Comptroller) direction within the Navy will enable the USD(C)/CFO to
report reliable obligation information in the cost of war report. As stated in the draft
report in Appendix G, we acknowledge that Navy budget submitting offices were
required to submit affirmation statements along with the monthly cost of war data
submission.

Naval Air Systems Command Comments
Although not required to comment, the Acting Inspector General, Department of the
Navy, responding for the Commander, Naval Air Systems Command, provided
comments. The Acting Inspector General agreed with the recommendations in the draft
report; however, he did not agree with our summary of the Naval Air System Command’s
implementation of SOPs and its verification processes and affirmation of cost of war
data. Specifically, the Acting Inspector General stated that NAVAIR used internal
guidance as its SOPs for the accounting and reporting of contingency cost data and that
the guidance was provided to the business and financial managers of GWOT funds.
Also, he did not agree with our audit results that showed NAVAIR partially verified cost
of war data that were reported. He stated that NAVAIR uses reports from the accounting


                                           37
systems to track obligations and expenditures reported in the cost of war report and that
comptroller and business financial management personnel conduct detailed reviews to
verify that funding is properly executed. Further, the Acting Inspector General disagreed
with report statements that NAVAIR was not required to provide affirmation statements
along with the cost of war submission and stated that NAVAIR prepares and provides
affirmation statements along with its monthly cost of war submission.

Our Response
We considered the Acting Inspector General’s comments and revised the report to clarify
that, based on the USD(C)/CFO memorandum, “Accuracy of Contingency Operation and
Disaster Relief Cost Reports,” March 3, 2006, NAVAIR was not required to provide
affirmation statements. Subsequently, the Department of the Navy, Office of the Assistant
Secretary (Financial Management, and Comptroller), on April 28, 2006, provided further
implementing guidance that required each Navy budget submitting office to attest to the
accuracy of monthly cost reports and affirm that those reports provide a fair
representation of on-going GWOT activities. Although the Acting Inspector General
stated that NAVAIR prepares and provides affirmation statements with its monthly cost
of war submission, NAVAIR did not provide those statements along with its cost of war
report submissions for our review. In addition, we also considered the Acting Inspector
General’s comments regarding NAVAIR verification of cost of war data. We still
maintain that NAVAIR only partially verifies cost of war data because it relies on cost
data provided by the Navy’s financial management systems and on verification processes
performed at the original point of data entry and did not verify cost data reported to
supporting documentation. Further, we considered the Acting Inspector General’s
comments on the use of internal guidance for accounting and reporting on contingency
operations. Although we recognize that NAVAIR provided financial managers of
GWOT funds with e-mail instructions for completing the cost of war submission, the
guidance was not sufficient to ensure that NAVAIR budget submitting offices prepared
accurate, complete, and supportable data for the cost of war report.

Defense Advanced Research Projects Agency
Although not required, the Comptroller, Defense Advanced Research Projects Agency
provided comments. The Comptroller generally agreed with the recommendations of the
report; however, he took exception to our summarization of its implementation of SOPs
and the submission of affirmation statements for data submitted for the cost of war report.
In his comments, the Comptroller stated that DARPA is a Defense agency within the
Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics and
not organizationally aligned with any DoD Component. Further, he stated that DARPA
was not tasked to be a reporting activity for cost of war reporting purposes and, therefore,
did not provide monthly cost of war reporting data to the Army. The Comptroller further
stated that DARPA cost of war data that the Army received through the Assistant
Secretary of the Army for Acquisition, Logistics, and Technology were obtained from an
unofficial DARPA source without the knowledge and the involvement of DARPA
financial authorities. Further, the Comptroller stated that because DARPA typically does
not receive GWOT supplemental funding, the reporting of such data and the submission



                                            38
of any associated affirmation statements was handled on a special case basis rather than
addressed in existing standard operating procedures.

Our Response
Although we agree that DARPA is not organizationally aligned under any DoD
Component, we do not agree with DARPA statements that the Army did not require it to
submit monthly cost of war data. In response to comments, we revised the report to more
clearly communicate that DARPA had received a request for cost of war data by e-mail
from the Army but did not respond to the request. We also clarified that because
DARPA not did respond, the Army requested assistance from the Assistant Secretary of
the Army (Acquisition, Logistics, and Technology) in obtaining obligation and
disbursement data, which it stated it did through a counterpart at DARPA. In
consideration of DARPA’s remark regarding the SOP requirement, we revised the report
to state, “We limited the applicability of SOPs to organizations that received GWOT
supplemental and bridge funding directly and on a continuous basis.”




                                           39
THIS PAGE LEFT INTENTIONALLY BLANK




                40
Office of the Under Secretary of Defense (Comptroller)
Comments




                    Click to add JPEG file




                                   41
Click to add JPEG file




               42
Click to add JPEG file




               43
Click to add JPEG file




               44
Click to add JPEG file




               45
Click to add JPEG file




               46
Click to add JPEG file




               47
Department of the Navy Comments




                  Click to add JPEG file




                                 48
Click to add JPEG file




               49
Click to add JPEG file




               50
Click to add JPEG file




               51
Click to add JPEG file




               52
Click to add JPEG file




               53
Click to add JPEG file




               54
Click to add JPEG file




               55
Click to add JPEG file




               56
                         Final Report
                          Reference




Click to add JPEG file




                           Page 33




               57
Click to add JPEG file




               58
Defense Advanced Research Projects Agency Comments




                  Click to add JPEG file




                                 59
                         Final Report
                          Reference




                           Page 30




Click to add JPEG file

                           Page 31




               60
